E-Mail Address:
contact@cocklelegalbriefs.com

C@OCKLE

Legal Briefs

Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-403

ALABAMA-COUSHATTA TRIBE OF TEXAS,
Petitioner,
v.
STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE YSLETA DEL SUR PUEBLO TRIBE OF TEXAS IN SUPPORT OF PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 3387 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 25th day of October, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE ‘
General Notary .
State of Nebraska . Lue ‘

Notary Public Affiant 38889

My Commission Expires Nov 24, 2020

 
